CERTIFICATE OF COMPLIANCE
No. ALSC No. 1171207

Judson Vaughn aka Robert L. Vaughn, Jr.
Petitioner
v.
William O. Bray, Teresa V. Bray,
Wachovia Bank Nka Wells Fargo,
Alabama Credit Land & Farm Lenders
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 2,132 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on

RECEIVED
may

2 9 2020

ax

.,20.

Judson Vaughn aka Robert L. Vaughn, Jr.
Pro se Counsel for the Petitioner
924 Hidden Cove Drive
Ball Ground, Georgia 30107
(404) 683-3572
JudsonVaughn@FirstImpressionsHQ.com

